CERTIFICATE OF SERVICE
No. 20NORTH AMERICAN MEAT INSTITUTE,
Petitioner,
v.
XAVIER BECERRA, ET AL.,
Respondents.
I, Paul J. Zidlicky, do hereby certify that, on this twenty-sixth day of
February, 2021, I caused one copy and an electronic copy of the Petition for a Writ
of Certiorari in the foregoing case to be served by first class mail, postage prepaid,
and by email, on the following parties:
R. MATTHEW WISE
Office of the California Attorney General
1300 I Street
Suite 125
Sacramento, CA 95814
(916) 323-8549
Matthew.Wise@doj.ca.gov

BRUCE A. WAGMAN
Riley, Safer, Holmes & Cancila LLP
456 Montgomery Street
16th Floor
San Francisco, CA 94104
(415) 275-8540
bwagman@rshc-law.com

Counsel for Respondents Xavier Becerra,
in his official capacity as Attorney
General of California; Karen Ross, in her
official capacity as Secretary of the
California Department of Food and
Agriculture; and Sonia Angell, Director of
the California Department of Public
Health

Counsel for Respondents The
Humane Society of the United
States; Animal Legal Defense Fund;
Animal Equality; The Humane
League; Farm Sanctuary;
Compassion in World Farming USA;
and Animal Outlook (f/k/a
Compassion Over Killing)

/s/ Paul J. Zidlicky
PAUL J. ZIDLICKY
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

